                       UNITED STATES DEPARTMENT OF EDUCATION

                                    OFFICE OF INSPECTOR GENERAL

                                       61 FORSYTH STREET, ROOM 18T71 

                                           ATLANTA, GEORGIA 30303


        Telephone: (404) 562-6470                                           Fax: (404) 562-6509



MEMORANDUM

DATE:          October 15, 2003

TO:            Sally Stroup
               Assistant Secretary
               Office of Postsecondary Education

FROM:          J. Wayne Bynum               /s/ J. Wayne Bynum
               Regional Inspector General for Audit
               Office of Inspector General

SUBJECT:       FINAL AUDIT REPORT
               Stillman College’s Administration of the Federal TRIO Programs
               Needs Improvement
               Control No. ED-OIG/A04-C0019


You have been designated as the action official responsible for the resolution of the findings and
recommendations in the attached final report. We have also provided a copy to the auditee and
to your Audit Liaison Officer.

The Office of Inspector General is required to review and approve your proposed Program
Determination Letter (PDL) and the Audit Clearance Document (ACD) before the PDL is
forwarded to the auditee. Please provide these documents for review, electronically if you wish
or by mail, to:

               J. Wayne Bynum

               Regional Inspector General, Region IV 

               U.S. Department of Education        

               Office of Inspector General 

               61 Forsyth Street, Room 18T71 

               Atlanta, GA 30303 


In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the number of audits unresolved. In
addition, any report unresolved after 180 days from the date of issuance will be shown as
overdue in our reports to Congress.
Sally Stroup                                                                          2



In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions, please contact me at 404-562-6477 or Assistant Regional Inspector
General Mary Allen at 404-562-6465.



Attachment
                      UNITED STATES DEPARTMENT OF EDUCATION

                                   OFFICE OF INSPECTOR GENERAL

                                       61 FORSYTH STREET, ROOM 18T71 

                                           ATLANTA, GEORGIA 30303


       Telephone: (404) 562-6470                                            Fax: (404) 562-6509

                                        October 15, 2003

Dr. Ernest McNealey
President
Stillman College
P.O. Box 1430
Tuscaloosa, AL 35403


Dear Dr. McNealey:

Enclosed is our final audit report, Control Number ED-OIG/A04-C0019, entitled Stillman
College’s Administration of the Federal TRIO Programs Needs Improvement. This report
incorporates the comments you provided in response to the draft report. If you have any
additional comments or information that you believe may have a bearing on the resolution of this
audit, you should send them directly to the following Education Department official, who will
consider them before taking final Departmental action on this audit:

               Sally Stroup 

               Assistant Secretary       

               Office of Postsecondary Education          

               Department of Education 

               1990 K Street, NW, Room 7115

               Washington, DC 20006 


It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,

                                             /s/ J. Wayne Bynum
                                             J. Wayne Bynum
                                             Regional Inspector General for Audit
                                             Region IV
Enclosure
                Stillman College’s Administration of the 

              Federal TRIO Programs Needs Improvement 



                                 FINAL AUDIT REPORT 





                                            ED-OIG/A04-C0019 

                                              October 2003



Our mission is to promote the efficiency,                        U.S. Department of Education
effectiveness, and integrity of the                                Office of Inspector General
Department’s programs and operations.                                         Atlanta, Georgia
  Statements that managerial practices need improvements, as well as
  other conclusions and recommendations in this report, represent the
     opinions of the Office of Inspector General. Determinations of
corrective action to be taken will be made by the appropriate Department
                           of Education officials.


 In accordance with the Freedom of Information Act (5 U.S.C. § 552),
    reports issued by the Office of Inspector General are available to
   members of the press and general public to the extent information
        contained therein is not subject to exemptions in the Act.
                         TABLE OF CONTENTS


                                          Page                                        

EXECUTIVE SUMMARY……………………………………………………………………...1 


AUDIT RESULTS ..………………………………………………………………………..……3

      Finding No. 1 – The College Drew Down More TRIO Funds Than Were
                      Recorded As Expenditures...…………………………………………3
      Recommendations.…………………………………………………………………….…5

      Finding No. 2 – The College Lacked Proper Accounting Controls ..…………………6 

      Recommendations....……………………………………………………………………..8 


      Finding No. 3 – The College Did Not Properly Inventory Equipment
                      Purchased with TRIO Funds…………………………………………9
      Recommendation..………………………………………………………………………11

      Finding No. 4 – Student Support Services Were Provided to 

                      Non-Participants ……………………………………………………..12 

      Recommendation...………………………………………………………….………….13 


      Finding No. 5 – Upward Bound and Upward Bound Young Scholars 

                      Performance Reports Were Not Always Accurate………..………..14 

      Recommendations………………………………………………………………………15 


BACKGROUND ...………………………………………………………………………..……16 

OBJECTIVE, SCOPE, AND METHODOLOGY …...………………………………..……….16

STATEMENT ON MANAGEMENT CONTROLS………………………………………….18 


Attachment A – Performance Goals with Inaccurate Supporting Documentation..……….19 


Attachment B – Written Response to the Draft Report.………………………….………….23




 ED-OIG/A04-C0019              FINAL REPORT                            Page i 

                            EXECUTIVE SUMMARY


Stillman College (the College) is a four-year, private, non-profit Historically Black
College in Tuscaloosa, Alabama. The purpose of the audit was to determine whether
the College administered the Federal TRIO programs in accordance with Title IV,
Section 402A of the Higher Education Act of 1965, as amended, and the Education
Department General Administrative Regulations (EDGAR). Specifically, we determined
whether the College adhered to TRIO program requirements regarding (1) accounting for
and using funds, (2) determining participant eligibility, (3) providing eligible services,
(4) documenting the achievement of program objectives, (5) submitting required reports,
and (6) supporting salary and wage charges. Audit coverage included the following
TRIO programs: Student Support Services (SSS), Upward Bound (UB), Upward Bound
Young Scholars1 (UBYS), and Upward Bound Math & Science (UBMS).

Although the timing and amount of cash drawdowns from the Department are to be as
close as administratively feasible to actual disbursements, the College drew down more
TRIO funds than it needed. The College did not have adequate controls over the
drawdown and expenditure of TRIO funds for program purposes. As of October 31,
2002, the College had drawn down TRIO funds in excess of its program expenditures
totaling $313,545 for three TRIO programs (SSS, UBYS, and UBMS).

The College lacked proper accounting controls over recording and reporting TRIO
program expenditures and reporting expenditures in the financial statements.
Expenditures were not posted to the accounting ledger in a timely manner. The College
did not have an accurate financial picture of TRIO funds expensed and funds available.

The College did not maintain an adequate inventory of computer equipment purchased
with TRIO funds. The TRIO Director did not maintain an inventory of computer
equipment purchased with TRIO funds because EDGAR requires an inventory for
equipment valued over $5,000. However, it was the College’s policy to maintain a
computer equipment inventory of items valued over $1,000. The College expended
$67,951 in TRIO funds for instructional supplies that included computer equipment.

SSS program services were provided to non-SSS participants. The College allowed all
students to receive tutoring by the SSS staff, who were paid 100 percent from TRIO
funds. As a result, TRIO funds were used to provide services to ineligible participants.

The 2001 award year performance reports for the UB and UBYS programs were
inaccurate. The accuracy of the reported objectives ranged from zero to 100 percent. We
attributed the inaccuracies to the lack of additional staff to help check the accuracy of the

1
 Stillman College received two regular Upward Bound grants. The College refers to Upward Bound award
P047A990692 as the “Upward Bound” program and Upward Bound award P047A990760 as the “Upward
Bound Young Scholars” program.


ED-OIG/A04-C0019                       FINAL REPORT                                  Page 1 of 30
reported information. At the time of our review, additional staff was not available to help
check the accuracy of the information for award year 2003.

We recommend that the Assistant Secretary for Office of Postsecondary Education
require the College to-

• 	 Return $107,679, $66,279, and $139,587 that was drawn down for the SSS, UBYS,
    and UBMS grants, respectively, and not expended;
• 	 Establish effective policies, procedures, and management controls to ensure that
    TRIO funds are only drawn down to meet immediate cash requirements in carrying
    out the purpose of the program;
• 	 Establish reconciliation procedures to be performed on a monthly and year-end basis
    to ensure that TRIO grant funds are expended and recorded in a timely fashion;
• 	 Establish effective procedures and management controls to ensure that all TRIO
    accounting transactions are recorded accurately and in a timely manner in its
    accounting ledgers;
• 	 Maintain an inventory of equipment purchased with TRIO funds as described in
    34 CFR § 74.34(f) (2001) to ensure that the equipment is adequately safeguarded to
    prevent loss, damage, or theft;
• 	 Ensure that the SSS English and math tutors paid 100 percent with TRIO funds only
    provide services to eligible participants; and
• 	 Establish adequate procedures for preparing performance reports to ensure that the
    performance data reported for each student is accurate and supported by sufficient
    documentation.

We also recommend that the Assistant Secretary for Postsecondary Education-

• 	 Determine whether Stillman College should be declared a “high-risk” grantee and,
    if necessary, impose special conditions allowed by 34 C.F.R. § 74.14 (2001)
    (e.g., reimbursement method for payment, etc.); and
• 	 Initiate appropriate monitoring activities to bring the College into compliance with
    EDGAR.

In its written response to the draft report, the College disagreed with the amount of
difference between the TRIO fund drawdowns and program expenditures. Based on its
analysis of drawdowns and expenditures, the College concluded that drawdowns
exceeded expenditures by $189,799. The College also stated that it had implemented a
new accounting system and a new TRIO payroll policy that corrected the problems noted
in this audit. In addition, the College feels that it was in compliance with regulations
regarding equipment inventory and student support services. The response also said the
College implemented new procedures to ensure performance reports are accurate and
supported by sufficient documentation.

We summarized the College’s comments after each finding and included them in their
entirety as Attachment B to this report. Our comments to the College’s written response
are included after each finding. We did not amend our recommendations.


ED-OIG/A04-C0019                    FINAL REPORT 	                            Page 2 of 30
                                     AUDIT RESULTS


Our audit objective was to determine whether the College administered the Federal TRIO
programs in accordance with Title IV, Section 402A of the Higher Education Act of
1965, as amended, and EDGAR. Specifically, we determined whether the College
adhered to TRIO program requirements regarding (1) accounting for and using funds,
(2) determining participant eligibility, (3) providing eligible services, (4) documenting
the achievement of program objectives, (5) submitting required reports, and
(6) supporting salary and wage charges.

We did not identify significant compliance problems with participant eligibility or the
submission of reports. However, we did identify problems with accounting for and using
funds, providing eligible services, documenting the achievement of program objectives,
and supporting salary and wage charges. We attributed these compliance problems to the
lack of adequate management controls over the administration of the TRIO programs.
The compliance problems identified are outlined in Findings 1 through 5.

Finding No. 1 – 	The College Drew Down More TRIO Funds Than
                 Were Recorded As Expenditures
The College drew down more TRIO funds than it needed for program expenditures. This
occurred because the College did not have adequate controls over the drawdown and
expenditure of TRIO funds. As a result, the College drew down $313,545 in excess of its
TRIO program expenditures.

The regulations at 34 C.F.R. § 74.22(b)(2) and (b)(3) (2001)2 state:

        Cash advances to a recipient organization are limited to the minimum
        amounts needed and be timed to be in accordance with the actual,
        immediate cash requirements of the recipient organization in carrying
        out the purpose of the approved program or project.

        The timing and amount of cash advances are as close as is
        administratively feasible to the actual disbursements by the recipient
        organization for direct program or project costs and the proportionate
        share of any allowable indirect costs.

As of October 31, 2002, the College had drawn down more funds than it expended for
three of its four TRIO programs. For the 1997-2001 Student Support Services (SSS)
grant that closed in August 2001, drawdowns exceeded recorded expenses in the

2
  Although the 2001 regulations are generally quoted in this report, the 1997, 1998, 1999, 2000, and 2002
regulations had the same requirements.


ED-OIG/A04-C0019                          FINAL REPORT 	                                    Page 3 of 30
accounting ledgers by $107,679. In addition, drawdowns exceeded expenses charged for
the Upward Bound Young Scholars (UBYS) and Upward Bound Math & Science
(UBMS) grants by $66,279 and $139,587, respectively. The UBYS and UBMS grants
will expire in 2004. As a result, the College drew down $313,545 in TRIO funds that it
did not expend for TRIO program purposes. Drawdowns for the Upward Bound (UB)
program did not exceed expenditures during the audit period. Table 1.1 below illustrates
the differences in drawdowns and expenditures for the four TRIO programs.

            Table 1.1 – TRIO Drawdowns and Expenditures as of 10/31/2002
                Grant       Drawdowns Expenditures      Overdraws
                 SSS           $ 813,038   $ 705,359     $ 107,679
                  UB            1,253,053   1,305,719         (52,666)
                UBYS              746,633     680,355           66,278
                UBMS              684,397     544,809          139,588
                          Total Overdraws                    $313,545
            NOTE: The negative overdraw amount is not included in the total overdraw amount
            since funds drawn for a grant can only be expensed for that grant and cannot be used
            for another grant (e.g., UB funds cannot be used for SSS expenses). [OMB Circular
            A-122, Cost Principles for Non-Profit Organizations]


The College lacked adequate internal controls for drawing down TRIO funds and for
recording expenditures in its TRIO accounting ledgers. The Grant Administrator and the
Business Office Manager explained that the College did not match each drawdown to
actual expenditures recorded in the accounting ledgers for each grant. Our review
confirmed that expenditures were not always recorded in the accounting ledgers and were
sometimes recorded to incorrect accounting ledgers. (See Finding 2 for a discussion of
accounting control problems that contributed to the drawdown of excessive funds.)

The College did not have a reconciliation process to verify that all TRIO funds drawn
down were used to pay TRIO expenses before making additional drawdowns. Although
the College generally drew down funds based on outstanding purchases or requisitions,
the memoranda requesting drawdowns did not always explain the specific expense
amounts that would be paid with TRIO funds.

We identified several memoranda written by the former TRIO Grant Administrator that
requested the drawdown of Federal funds "to replenish the Operating Account of some
much needed working capital." Memoranda also stated that "due to the severe cash flow
shortage" the College was going to draw down funds based on "a summary of grant costs
on a forecasting basis." Based on these memoranda and our review of the College’s
accounting for drawdowns and expenditures, we concluded that the College drew down
TRIO funds to pay for operating expenses rather than to satisfy immediate TRIO cash
needs.




ED-OIG/A04-C0019                         FINAL REPORT                                              Page 4 of 30
RECOMMENDATIONS
We recommend that the Assistant Secretary for Postsecondary Education:

1.1 	 Require the College to return $107,679, $66,279, and $139,587 that was drawn
      down for the SSS, UBYS, and UBMS grants, respectively, and not expended.

1.2 	 Require the College to establish effective policies, procedures, and management
      controls to ensure that TRIO funds are only drawn down to meet immediate cash
      requirements in carrying out the purpose of the program.

1.3 	 Require the College to establish reconciliation procedures to be performed on a
      monthly and year-end basis to ensure that TRIO grant funds are being expended and
      recorded in a timely fashion.

1.4 	 Determine whether the College should be declared a “high-risk” grantee and, if
      necessary, impose special conditions allowed by 34 C.F.R. § 74.14 (2001)
      (e.g., reimbursement method for payment, etc.).

1.5 	 Initiate appropriate monitoring activities to bring the College into compliance with
      EDGAR.

STILLMAN COLLEGE RESPONSE

The College’s written response to the draft report (see Attachment B) stated that its
analysis for the four TRIO programs showed a difference of about $174,349 between
expenses recorded and the fund drawdowns. In addition, it was discovered that during
1999-2000 indirect cost of $22,981 was not charged to the TRIO programs, nor were the
UBYS and UBMS programs billed for $34,292 in room charges for the summer
programs. The College said it appears as though these costs were taken into
consideration when the drawdowns were done, but were never recorded on the ledger.
The College stated that taking these expenses into consideration, the drawdowns
exceeded expenses by $189,799.

Throughout the audit, it was communicated that the College implemented a new
integrated accounting system, which required a new account number structure. As part of
the transition to the new account number, several TRIO transactions were coded with the
old account numbers. The accountants worked to correct the account number problems,
but they apparently did not catch all of them. The excess cash in the UBYS and UBMS
and the overage in UB and SSS are attributed to the account number change. Over the
past 18 months, several process changes have been made to improve the College’s grant
accounting procedures. [See Attachment B for a list of process changes.] With these
changes, the College is confident that all TRIO transactions will be properly coded and
recorded.




ED-OIG/A04-C0019                    FINAL REPORT 	                            Page 5 of 30
OIG COMMENTS

The College’s calculation of drawdowns versus expenditures differs from our calculation.
The College included drawdowns and expenditures from both the 9/01/1997 – 8/31/2001
SSS grant (old grant) and the 9/01/2001 – 8/31/2006 SSS grant (new grant). By doing
this, drawdowns that were not expended from the old grant were offset by expenditures
from the new grant. However, the old grant is a separate grant and drawdowns for the
old grant cannot be used to pay expenditures for the new grant. We reviewed the
documentation provided by the College to support its UB, UBYS, and UBMS program
expenditures and found that it did not match expenditures recorded in the TRIO
accounting ledgers. The College did not submit accounting ledgers to support its claims
of drawdowns and expenditures for its TRIO programs.

Regarding the $22,981 in indirect cost that was not recorded in the TRIO accounting
ledgers for 1999-2000, we verified that the College did not enter indirect cost for the
TRIO programs for that year. The College did not submit evidence that it had recorded
indirect cost in its accounting ledgers for 1999-2000. If the College provides evidence to
the Department that it posted indirect cost to its accounting ledgers for 1999-2000, the
Departmental Action Official may allow the College to reduce the recommended
recovery by that amount. The amount of indirect cost claimed should not exceed the
College’s indirect cost rate of 8 percent.

Regarding the $34,292 in room charges that were not entered into the TRIO accounting
ledgers, the College did not submit sufficient evidence (receipts and institutional
accounting ledger entries) to show that these expenditures were allowable and made
solely for its TRIO programs. Therefore, we could not verify that these were allowable
TRIO expenditures.

In conclusion, we did not change our figures in the final report. The College did not
provide sufficient documentation to show that $313,545 in program drawdowns was used
for allowable TRIO expenditures.

We appreciate the College’s effort to strengthen its policies, procedures, and management
controls to improve its accounting procedures. The actions described in the College’s
written response should help ensure that it meets Departmental requirements regarding
TRIO fund drawdowns and expenditures.

Finding No. 2 – The College Lacked Proper Accounting Controls
The College lacked proper accounting controls over recording and reporting TRIO
program expenditures. There were inadequate controls over recording salary and general
non-salary expenses and reporting expenditures in the financial statements. This
occurred because expenditures were not posted to the appropriate accounting ledger in a
timely manner. As a result, the College did not have an accurate financial picture of
funds expensed and funds available for each TRIO grant.




ED-OIG/A04-C0019                   FINAL REPORT                              Page 6 of 30
The regulations at 34 C.F.R. § 74.21(b)(1) and (2) (2001) state that grant recipients'
financial management systems shall provide for the following:

       Accurate, current, and complete disclosure of the financial results of
       each federally-sponsored project in accordance with the reporting
       requirements established in Sec. 74.52 . . .

       Records that identify adequately the source and application of funds for
       federally sponsored activities. These records shall contain information
       pertaining to awards, authorizations, obligations, unobligated balances,
       assets, outlays, income, and interest.

In addition, Office of Management and Budget (OMB) Circular A-133, Sec 310(a)
(1997) requires that "the auditee shall prepare financial statements that reflect its
financial position, results of operations or changes in net assets, and, where appropriate,
cash flows for the fiscal year audited.”

Employee Salary Expenses Inaccurately Recorded
We reviewed a random sample of three months of TRIO payroll records for each of the
College’s four TRIO programs for the 2001 award year. Our sample covered monthly
salary payments totaling $105,932 for 57 full- and part-time TRIO employees. We found
that salary expenditures for 18 of the 57 employees totaling $28,990 were recorded to the
TRIO program, but were recorded in the incorrect accounting ledger. As a result, the
College did not have an accurate financial picture of funds expensed and funds available
for each TRIO grant. Table 2.1 below illustrates the number of sampled employees that
were incorrectly recorded by program. We found no significant deficiencies in recording
salary expenditures during our review of TRIO payroll records for the 2002 award year.

Table 2.1 – Employee Salaries Recorded to Incorrect TRIO Grant Accounting
            Ledgers in 2001 Award Year
 Grant     No. of Employees       No. of Employees         No. of Employees
           Recorded as Paid     Authorized to be Paid   Incorrectly Recorded as
              from Grant            from Grant             Paid from Grant
SSS                 9                      7                        2
UB                 31                     19                       12
UBYS               12                      8                        4
UBMS                5                      5                        0
Totals             57                     39                       18

General TRIO Expenses Not Recorded
We reviewed a random sample of 18 of 180 general (non-salary) TRIO expenditures for
the four TRIO grants in the 2001 award year. The 18 expenditures totaled $196,224. We
found that 7 of the 18 general expenditures totaling $9,758 were not entered into the
TRIO general ledger. We found no significant deficiencies in our review of a random
sample of 15 of 147 general TRIO expenditures for the 2002 award year.




ED-OIG/A04-C0019                    FINAL REPORT                                Page 7 of 30
Financial Statements Not Supported by Accounting Ledgers
The TRIO grant expenditures reported in the FY 2001 financial statements exceeded the
expenditures recorded in the accounting ledgers and the drawdowns reported in the
Department’s Grants Administration Payment System (GAPS). UB expenditures
reported in the financial statements were higher than the expenditures recorded in the
accounting ledgers by $13,324 and higher than the GAPS drawdowns by $33,756.
SSS expenditures reported in the financial statements were higher than the expenditures
recorded in the accounting ledgers by $236,621 and higher than the GAPS drawdowns by
$163,148.

The College did not record expenditures in the TRIO accounting ledgers in a timely
manner. Stipend and salary payments were recorded in the accounting ledgers at least
one month after the payments were made. According to the Business Office Manager
and staff, this occurred because staff members were busy performing other functions.
The Business Office Manager said they were aware that stipend and salary payments
should be recorded more quickly so that grant budgets would reflect an accurate
representation of actual expenses and available funds.

The College changed to a new accounting system in FY 2001. During the transition to
the new system, the staff recorded many TRIO expenses to the wrong year accounting
codes. The College made 269 TRIO journal entries to correct these errors. Because
expenses were incorrectly categorized and not always entered into the accounting ledgers,
the College did not have an accurate picture of expenses and funds available for the
TRIO grants. This created a risk of the College drawing down TRIO funds based on
incorrect budget information. Also, due to the number of corrective entries made during
FY 2001, the accounting system did not accurately capture true TRIO budget and
expense data throughout the year.

By not accurately reporting TRIO expenditures, in particular the SSS expenditures, the
College’s financial statements did not adequately reflect its financial position, results of
operations or changes in net assets, and cash flows for the fiscal year audited.

RECOMMENDATIONS
We recommend that the Assistant Secretary of the Office of Postsecondary Education
require the College to:

2.1 	 Establish effective procedures and management controls to ensure that all TRIO
      accounting transactions are entered accurately and in a timely manner into the
      accounting ledgers.

2.2 	 Review all salary expenses for the 2001 award year and make adjustments as
      necessary to ensure that all TRIO salaries are recorded to the correct grant ledger.




ED-OIG/A04-C0019                     FINAL REPORT 	                             Page 8 of 30
STILLMAN COLLEGE RESPONSE

In its written response to the draft report (see Attachment B), the College stated that
throughout the audit, it was communicated that the College implemented a new
integrated accounting system, which required a new account number structure. As part of
the transition to the new account number, several TRIO transactions were coded with the
old account numbers. The accountants worked to correct the account number problems,
but they apparently did not catch all of them. The excess cash in the UBYS and UBMS
and the overage in UB and SSS were attributed to the account number change.

In response to the comment regarding stipends and salary payments recorded at least one
month after payments were made, the College outsources its payroll to ADP, which
requires that the College manually record all payroll transactions in its accounting
system. This is a tedious and time-consuming process, which accounts for the delay in
getting these expenses on the books. Detail payroll records are provided from ADP, so
the College is aware of the monthly payroll expense for the TRIO programs.

The College implemented a new policy, which requires the TRIO Program Director to
complete a Personnel Action Form for all grant employees at the beginning of each new
grant period. The form requests information regarding employee gross pay, name of
TRIO program, account number, and if the employee is paid from multiple sources, the
programs and the appropriate budget account number. As a result of implementing this
new policy, the OIG audit found no deficiencies in their samples for the 2002 award year.

Regarding the difference between the amount of TRIO expenditures reported on the
College’s FY 2001 financial statements and what was reported in the accounting ledgers,
the College has contacted its auditors to inquire about this discrepancy. The auditors are
looking at their working papers to determine the explanation for the difference.

OIG COMMENTS

We appreciate the College’s effort to strengthen its policies, procedures, and management
controls to improve its accounting procedures. The actions described in the College’s
response should help ensure that it meets Departmental requirements for recording
expenditures in the proper accounting ledgers in a timely manner.

Finding No. 3 – Inventory Not Maintained of Equipment Purchased
                 with TRIO Funds
The College did not maintain an adequate inventory of computer equipment purchased
with TRIO funds. Although it was the College’s policy to maintain a computer
equipment inventory of items valued over $1,000, the TRIO Director did not maintain an
inventory of computer equipment purchased with TRIO funds because EDGAR requires
an inventory for equipment valued over $5,000. The College expended $67,951 in TRIO
funds for instructional supplies that included computer equipment without maintaining a
computer equipment inventory.


ED-OIG/A04-C0019                   FINAL REPORT                              Page 9 of 30
The regulations at 34 C.F.R. § 74.2 (2001) define equipment as “tangible nonexpendable
personal property including exempt property charged directly to the award having a useful
life of more than one year and an acquisition cost of $5,000 or more per unit. However,
consistent with recipient policy, lower limits may be established.”

The Department’s property management standards at 34 C.F.R. § 74.34(f)(1) (2001) for
equipment acquired with Federal funds state that an inventory shall include:
      (i) 	 A description of the equipment.
      (ii) 	 Manufacturer's serial number, model number, Federal stock
             number, national stock number, or other identification number.
      (iii) Source of the equipment, including the award number.
      (iv)	 Whether title vests in the recipient or the Federal Government.
      (v) 	 Acquisition date (or date received, if the equipment was 

             furnished by the Federal Government) and cost. 

      (vi) 	 Information from which one can calculate the percentage of
             Federal participation in the cost of the equipment (not applicable
             to equipment furnished by the Federal Government).
      (vii) Location and condition of the equipment and the date the 

             information was reported. 

      (viii) Unit acquisition cost.
      (ix)	 Ultimate disposition data, including date of disposal and sales
             price or the method used to determine current fair market value
             where a recipient compensates ED for its share.

The regulations at 34 C.F.R. § 74.34(f)(3) and (4) (2001) state in part that “A physical
inventory of equipment must be taken and the results reconciled with the equipment
records at least once every two years . . . [and] a control system must be in effect to
insure adequate safeguards to prevent loss, damage, or theft of the equipment.”

During the 2001-2002 award year, the College expended $67,951 for Instructional
Supplies (that included computers and computer equipment) for its four TRIO programs.
The TRIO Director was unable to provide a computer equipment inventory or receipts for
the computers purchased with TRIO funds. In addition, the Business Office did not
document the receipt of TRIO computer equipment.

The TRIO Director stated that he did not maintain an inventory of TRIO computer
equipment because the Department’s regulations only require an inventory for equipment
valued at $5,000 or more. The Business Office Manager stated that the College did not
keep a separate TRIO computer inventory because it did not capitalize computers
purchased with Government funds. However, the College’s general policy for
maintaining computer equipment not purchased with Government funds was to capitalize
equipment purchases valued over $1,000 with a useful life greater than a year.

Although the College did not maintain an inventory for equipment purchased with TRIO
funds, the TRIO Director stated that when the College purchased a computer for a



ED-OIG/A04-C0019                    FINAL REPORT 	                           Page 10 of 30
particular TRIO Program, the Office of Auxiliary Services placed a sticker on the
computer with the initials of the TRIO program using the computer. For example, if the
Upward Bound program were using a computer, a hand-written sticker with the initials
"UB" would be placed on the computer. The TRIO Director also stated that the stickers
indicated if TRIO funds were used to purchase the computer. We observed more than
one sticker on some computers, which raised the question as to which program’s funds
were used to purchase the computers.

The Office of Auxiliary Services provided inventory listings that included the computer
equipment being used by the TRIO programs during the College's 2001 and 2002 fiscal
years. However, these listings did not include (1) an accurate source of the equipment
(TRIO computers were listed as DOE/Title III), (2) an indication of the ownership of the
equipment (institution or Federal Government), (3) the acquisition date of the equipment,
(4) the cost of the equipment, and (5) the date of disposal of the equipment. Also, laptop
computers and projectors that the TRIO Director indicated were purchased with TRIO
funds were not listed on these inventory listings.

The Business Office Manager stated that several computers had been stolen from the
campus, but the stolen computers had not been purchased with Federal funds. However,
because the College did not maintain a detailed inventory of equipment purchased with
TRIO funds, there was no way of determining whether the stolen equipment was
purchased with Federal funds.

Without a detailed inventory and properly tagged equipment, the College did not have
adequate safeguards in place to prevent loss, damage, or theft of the equipment. An
inventory would also ensure that equipment purchased with TRIO funds is only used by
the program that purchased it.

RECOMMENDATION
We recommend that the Assistant Secretary of the Office of Postsecondary Education
require the College to:

3.1 	 Follow its equipment purchase policy for establishing and maintaining an inventory
      of equipment purchased with TRIO funds to ensure that the equipment is
      adequately safeguarded to prevent loss, damage, or theft.

STILLMAN COLLEGE RESPONSE

The College believes that it was in compliance with regulations at 34 C.F.R. § 74.2
(2001), which defines equipment as “tangible . . . useful life of more than one year and an
acquisition cost of $5,000 or more per unit.” The equipment was not capitalized, but was
tracked in the College’s inventory report. To improve the tracking of these purchases, the
College’s inventory procedures have been updated to include the recording of all of the
information required by Federal regulations. The inventory will now include:
Description of equipment, identification number, serial number, TRIO program


ED-OIG/A04-C0019                   FINAL REPORT 	                           Page 11 of 30
purchasing the equipment, acquisition date, location and condition of equipment,
acquisition cost, and disposition data. Also, Auxiliary Service is provided with the
appropriate paperwork when capital purchases are initiated and is notified when
equipment is received, so that it can be properly inventoried and tagged.

Regarding the computers stolen from the campus, the Business Office Manager can say
with unequivocal confidence that the stolen computers were not purchased with Federal
funds.

OIG COMMENTS

We appreciate the College’s effort to implement an inventory system for computer
equipment purchased with Federal funds. The actions described in the College’s
response should help ensure that computer equipment purchases are safeguarded against
loss, damage, and theft.

Although the College indicated that computers purchased with Federal funds were not
stolen, we recommended that the College maintain a detailed equipment inventory as a
control for safeguarding and tracking all equipment, not just equipment purchased with
Federal funds. An inventory system will provide a safeguard against loss, damage, and
theft of all computer equipment purchased by the College, regardless of funding source.

Finding No. 4 – Student Support Services Were Provided to
                Non-Participants
The College provided SSS to non-SSS participants by allowing the SSS staff to tutor all
enrolled students. As a result, TRIO funds were used to provide services to ineligible
participants.

The Department's SSS regulations state:

     The Secretary encourages grantees to coordinate project services with
     other programs for disadvantaged students operated by the grantee
     institution provided the Student Support Services grant funds are not
     used to support activities reasonably available to the general student
     population. [34 CFR Section 646.32 (d)(1) (2001)]

     Allowable costs include the following if they are reasonably related to
     the objectives of the project: (a) Cost of remedial and special classes if--
     (1) These classes are not otherwise available at the grantee institution;
     (2) Are limited to eligible project participants; and (3) project 

     participants are not charged tuition for classes paid for by the project. 

     [34 CFR Section 646.30 (2001)] 


English and math tutoring services provided by SSS employees were also available to
non-SSS students. Our review of 9 of the 88 English tutoring sign-in sheets for the 2000-


ED-OIG/A04-C0019                    FINAL REPORT                              Page 12 of 30
2001 award year revealed that non-SSS participants received SSS tutoring. For the nine
sign-in sheets reviewed, 88 of 167 students that received tutoring were not listed as SSS
participants in the College's performance report. Our review of 5 of the 45 math tutoring
sign-in sheets for the 2000-2001 award year also revealed that non-SSS participants
received SSS tutoring. For the five sign-in sheets reviewed, 10 of 69 students that
received tutoring were not listed as SSS participants in the College's performance report.
The SSS English and math tutors’ salaries were paid 100 percent from TRIO funds.

The English and math tutors confirmed that they provided tutoring services to both SSS
participants and non-participants. The TRIO Computer Laboratory Computer Specialist
also stated that all students at the College have access to the SSS/TRIO computer lab and
are allowed to use the facility.

The Vice President for Academic Affairs stated that, in addition to SSS tutors, the
College had tutors available to the general student population in the College’s sciences,
business, math, and other discipline areas. The Vice President said the College provides
mentors, academic advisors, and teachers who assist students with their academic needs.
The Vice President said there were also several computer labs throughout the campus, in
addition to the TRIO lab.

The TRIO Director stated that non-SSS participants were allowed to use SSS services in
order to encourage non-participants to join the SSS program. There was no identified
need for the College to allow the general student population to use SSS services because
the College provided other similar services to the general student population. By
allowing SSS employees to provide services to non-SSS participants and non-participants
to utilize SSS services and equipment, the College used TRIO funds to provide services
to ineligible participants.

RECOMMENDATION
We recommend that the Assistant Secretary of the Office of Postsecondary Education
require the College to:

4.1 	 Ensure that SSS English and math tutors paid 100 percent with TRIO funds only
      provide services to eligible participants.

STILLMAN COLLEGE RESPONSE

The College believes it was in compliance with SSS regulations at 34 CFR § 646.32
(d)(1) (2001) as it relates to coordinating project services with other College programs to
provide support activities to disadvantaged students. The College offers tutoring,
mentoring, and academic advising to students; however, the College did not have a
structured English and Mathematics tutoring program that was readily available to the
general student population.




ED-OIG/A04-C0019                    FINAL REPORT 	                           Page 13 of 30
OIG COMMENTS

We recognize that the College has the option to decide how to best provide tutoring
services to students, in accordance with the TRIO regulations when services are funded
from that source. We suggest that the College contact the Departmental TRIO program
office to obtain guidance on how to best coordinate tutoring services, when tutoring
services are funded from both institutional and TRIO funds.

Finding No. 5 – Upward Bound and Upward Bound Young Scholars
                Performance Reports Were Not Always Accurate
We reviewed supporting data for the TRIO performance reports for award years 2001 and
2002. The 2001 award year performance reports for the UB and UBYS programs were
inaccurate. Also, the College did not meet its performance objective for the number of
UBYS students it served in award year 2001. The College staff responsible for preparing
the performance reports did not ensure the accuracy of the reported information prior to
submission. The accuracy of the reported objectives ranged from zero to 100 percent for
the supporting data we reviewed.

The regulations at 34 C.F.R. § 74.51(d)(1) (2001) require the following:

       Performance reports must generally contain, for each award . . . 

       a comparison of actual accomplishments with the goals and 

       objectives established for the period, the findings of the 

       investigator, or both.


In addition, the Upward Bound regulations at 34 C.F.R. § 645.43(c) (2001) require that:

       For each participant, a grantee shall maintain a record of (1) The basis
       for the grantee’s determination that the participant is eligible to
       participate in the project under §645.3; (2) The basis for the grantee’s
       determination that the participant has a need for academic support in
       order to pursue successfully a program of education beyond secondary
       school; (3) The services that are provided to the participant; (4) The
       educational progress of the participant during high school and, to the
       degree possible, during the participant’s pursuit of a postsecondary
       education program.

The UB and UBYS performance reports for the 2001 award year were not always
accurate when compared to the supporting documentation. The supporting
documentation for the UB and UBYS performance reports had large variations in
accuracy. For the supporting data we reviewed, the accuracy of the UB performance
report varied from 12 to 88 percent, while the accuracy of the UBYS report varied from
zero to 100 percent. Tables 5.1 and 5.2 in Exhibit A illustrate the objectives that were not
fully supported for the 2001 award year.



ED-OIG/A04-C0019                    FINAL REPORT                             Page 14 of 30
In addition, the College did not meet its performance objective for the number of students
served. For example, in its 2001 UBYS performance report, the College reported that it
served 50 students. However, the supporting documentation showed that the College
served 46 students. In another example, one UBYS objective was to inspire 96 percent of
the participants to maintain at least a 2.5 grade point average. The College reported that
it met this goal for 2001; however, the supporting documentation showed that grade point
data was reported for only 1 of the 46 students. Therefore, the reported information was
not supported.

For award year 2002, we reviewed the three performance objectives used to determine
points that count toward future grant funding (34 C.F.R. § 645.32 (2001)) for the UBYS
and UBMS programs (i.e., to serve the minimum number of students; verify that at least
two-thirds of the students were low-income students and/or potential first generation
college students; and provide TRIO services to all 50 students served that year). The
reported objectives were accurate and documented.

The procedures for preparing TRIO performance reports did not include safeguards to
ensure reporting errors were identified. One supervisor was responsible for checking the
2001 award year performance data for accuracy. The supervisor stated that there was not
enough time to thoroughly review each student’s performance data for accuracy. An
additional staff member was assigned to help check the accuracy of the 2002 award year
performance report, which was supported. However, the staff member was no longer
employed. The College had not assigned anyone else to help verify the accuracy of the
2003 award year performance data.

By not preparing and submitting performance reports that accurately reflect accurate
accomplishments of performance goals, there is a risk that the College is not meeting the
goals in its grant proposal. The Department relies on performance data to determine
whether a grantee is accomplishing its grant objectives and deserves continued funding.

RECOMMENDATION
We recommend that the Assistant Secretary of the Office of Postsecondary Education
require the College to:

5.1 	 Establish adequate procedures for preparing performance reports to ensure that the
      performance data reported for each student is accurate and supported by sufficient
      documentation.

STILLMAN COLLEGE RESPONSE

A plan has been developed to ensure that adequate procedures for performance data
reported for each student is accurate and supported by sufficient documentation. The
College has put a staff in place to review student files, monitor program progress on a
monthly basis to serve as a safeguard to identify and offset possible errors, and to ensure
that program services are properly coded and documented. As indicated in the audit


ED-OIG/A04-C0019                    FINAL REPORT 	                           Page 15 of 30
report, the TRIO performance report for award year 2002 showed reported objectives to
be accurate and documented.

OIG COMMENTS

We appreciate the College’s effort to strengthen its policies, procedures, and management
controls to improve its performance reporting to the Department. The actions described
in the College’s response should help ensure that TRIO performance reports are accurate
and supported by documentation.


                                 BACKGROUND


Stillman College is a four-year, private, non-profit, Historically Black College located in
Tuscaloosa, AL. The College was founded by the General Assembly of the Presbyterian
Church in 1875. The College is accredited by the Southern Association of Colleges and
Schools. The College has an enrollment of about 1,500 full-time students.

During the scope of this audit, the College participated in the following TRIO programs:
Student Support Services, Upward Bound, Upward Bound Young Scholars, and Upward
Bound Math & Science. According to GAPS, the College had drawn down $3,497,121
for these TRIO grants as of October 31, 2002, as follows:
    • Student Support Services (09/01/1997 – 08/31/2001) - $813,038
    • Upward Bound (06/01/2000 – 10/31/2002) - $1,253,053
    • Upward Bound Young Scholars (09/01/1999 – 10/31/2002) - $746,633
    • Upward Bound Math & Science (11/01/1999 – 10/31/2002) - $684,397


          OBJECTIVE, SCOPE, AND METHODOLOGY


The audit objective was to determine whether the College administered the Federal TRIO
programs in accordance with Title IV, Section 402A of the Higher Education Act of
1965, as amended, and the Education Department General Administrative Regulations
(EDGAR). Specifically, we determined whether the College adhered to TRIO
requirements regarding (1) accounting for and using funds, (2) determining participant
eligibility, (3) providing eligible services, (4) documenting the achievement of program
objectives, (5) submitting required reports, and (6) supporting salary and wage charges.
Audit coverage included the following grant periods (as of October 31, 2002) for the four
TRIO programs administered by the College:
    • Student Support Services - 09/01/1997 – 08/31/2001
    • Upward Bound - 06/01/2000 – 05/30/2004
    • Upward Bound Young Scholars - 09/01/1999 – 08/31/2004
    • Upward Bound Math & Science - 11/01/1999 – 10/31/2004



ED-OIG/A04-C0019                    FINAL REPORT                             Page 16 of 30
To accomplish our objectives, we reviewed laws, regulations, and policies applicable to
the TRIO programs; interviewed U.S. Department of Education officials from the TRIO
Program Office and Higher Education Programs’ Program Monitoring Information
Technology Office; reviewed the College’s grant applications and approved budgets for
its four TRIO grants; interviewed selected College officials responsible for administering
the TRIO programs and funds; reviewed the College’s compliance and financial
statement audits for its fiscal years 1999, 2000, and 2001; reviewed the College’s bank
statements; reviewed the College’s accounting records related to requesting, accounting
for, and using grant funds; and reviewed the College’s 2000-2001 award year
performance reports for the four TRIO programs.

To test the accounting for and use of funds we reviewed cash management by comparing
all drawdowns to all expenses recorded by the College for the SSS grant that closed in
August 2001 and the UB, UBYS, and UBMS grants as of October 31, 2002. We also
tested the use of funds by reviewing the propriety of travel expenditures. We reviewed
supporting documentation for a judgmental sample of 7 of 20 student and staff trips paid
for with TRIO funds during award year 2000-2001. For the staff trips, we reviewed trips
to two large cities and one small city. For the student trips, we reviewed the three most
expensive trips taken and one trip based on TRIO program office concerns. In addition,
we attempted to test the use of funds by reviewing computer equipment purchased with
TRIO funds; however, there was no adequate equipment inventory maintained.

To verify student eligibility, we reviewed a random sample of 47 of 462 student files
for the four TRIO grants in the 2000-2001 award year and reviewed all student files
(50 each) for the 2001-2002 UBYS and UBMS grants.

To test the propriety of services provided, we reviewed a random sample of 5 of 45 SSS
math and 9 of 88 SSS English tutoring sign-in sheets for the 2000-2001 award year. The
sign-in sheet contained 69 math students and 167 English students. We further reviewed
a random sample of 6 of 30 UB/UBYS/UBMS attendance books in school year 2000 and
4 of 8 attendance books in 2001.

To test reported program achievements, we reviewed a random sample of 47 of 462
student files for the four TRIO grants in the 2000-2001 award year and reviewed all
student files (50 each) for the 2001-2002 UBYS and UBMS grants. We compared the
2000-2001 performance report to the documentation in the 47 student files and the
information in the BLUMEN student database system. For the 2001-2002 award year,
we reviewed all of the BLUMEN information for all students that participated in the
UBYS and UBMS programs.

To test the submission of required reports, we verified the submission date for all four of
the 2000-2001 TRIO performance reports. We also verified the submission date of the
OMB A-133 audit report for school fiscal years 1999, 2000, and 2001.

To test payroll expenditures, we reviewed a random sample of 3 months for each of the
four TRIO programs for the 2000-2001 award year and a random sample of 3 of 7 payroll



ED-OIG/A04-C0019                    FINAL REPORT                             Page 17 of 30
ledgers for the four TRIO grants for the 2001-2002 award year. To test other
expenditures, we reviewed a random sample of 18 of 180 general, non-salary TRIO
expenditures for the four TRIO grants in the 2000-2001 award year and 15 of 147
expenditures in the 2001-2002 award year.

During the audit, we relied on computer-processed data contained in the College’s
“Colleague” accounting system and “BLUMEN” TRIO student information database.
We assessed the general and application controls over these systems and found them to
be adequate. We also conducted limited testing of the data contained in the systems.
Based on these assessments and tests, we concluded that the data were sufficiently
reliable to meet the audit objectives.

We conducted fieldwork during the period August 2002 through February 2003. We
conducted an exit conference with College officials on March 20, 2003. We conducted
the audit according to generally accepted government auditing standards appropriate to
the scope of the review described above.


         STATEMENT ON MANAGEMENT CONTROLS 


As part of the audit, we assessed the system of management controls, policies,
procedures, and practices applicable to the College’s administration of the TRIO
programs. Our assessment was performed to determine the level of control risk for
determining the nature, extent, and timing of substantive tests to accomplish the audit
objectives. For the purposes of this report, we assessed and classified significant controls
into the following categories: Drawdown of TRIO funds, recording of TRIO
expenditures, determining student eligibility, providing services to eligible students,
preparation and submission of performance and audit reports, and inventory of equipment
purchased with TRIO funds.

Due to inherent limitations, an evaluation made for the limited purposes described above
would not necessarily disclose all material weaknesses in the management controls. We
identified no significant deficiencies with determining student eligibility or submitting
reports. However, our overall assessment disclosed management control weaknesses in
each of the other control areas mentioned above. These weaknesses are discussed in the
AUDIT RESULTS section of this report.




ED-OIG/A04-C0019                    FINAL REPORT                             Page 18 of 30
Attachment A - Performance Goals With Inaccurate Supporting
Documentation

Table 5.1 - Upward Bound 2001 Award Year
                                 Number of                Number of Student
                                  Student                Files with Inaccurate
                    Verification    Files                     Supporting        Accuracy
   Objective           Steps      Sampled                   Documentation      Percentage
1. To identify, recruit,   Student
and select 120             eligibility
participants who meet      correctly
the low-income, first      reported                17             4               77%
generation criteria and
have need for services.
2. To provide              Academic
counseling and             Advisement
guidance to 100% of        reported
the 120 participants to    correctly               17            11               35%
ensure that they
graduate from high
school and prepare to
enter a postsecondary
institution.
3. To provide              College Prep
academic achievement       Classes reported
and individualized         correctly               17             8               53%
prescriptions of
services and activities
to 100% of the 120
participants to provide
support for
accomplishing
educational and career
goals.
4. To inspire 96% of       Ending GPA
the 120 participants to    reported
maintain at least a 2.5    correctly               17            15               12%
grade point average on
a 4.0 scale.
5. To advance 96% of       Ending grade
the 120 participants       level reported
selected one grade         correctly               17             2               88%
level each year through
classroom instruction
and tutoring.
6. To increase the raw     Not in Detail
scores of 75% of the       Report, Not
120 participants by        Verified               N/A            N/A              N/A
10% on the teacher-
constructed tests and
by .5% growth rate on
the Test of Adult Basic
Education (TABE) in
English, Literature,
Mathematics, Reading
and Vocabulary.



ED-OIG/A04-C0019                              FINAL REPORT                 Page 19 of 30
Attachment A - Performance Goals With Inaccurate Supporting
Documentation

                                               Number of    Number of Student
                                                Student    Files with Inaccurate
                           Verification           Files         Supporting        Accuracy
     Objective                Steps             Sampled       Documentation      Percentage
7. To retain at least     Exit date
80% of the 120            reported
participants who enter    correctly               17                3               82%
the program until the
completion of their
secondary education.
8. To graduate 65% of     Degree level
the seniors who           reported
participate in the        correctly               17               15               12%
Summer Bridge
Program from college
within six years.
9. To motivate at least   Not in Detail
75% of the 120            Report, Not
participants who enroll   Verified                N/A              N/A              N/A
in postsecondary
schools to pursue and
complete degrees.
10. To administer the     PLAN score
PLAN to the non-          reported
bridge students during    correctly               17                2               88%
the Summer
Residential
Component resulting
in 60% of the
freshmen scoring 15
and above and 70% of
the sophomores
scoring 17 and above.
11. To administer the     Not verified for
ACT to 100% of the        accuracy                N/A              N/A              N/A
juniors each year
resulting in 75% of the
juniors scoring 20 and
above.
12. To provide            Cultural Activity
academic enrichment,      reported
social, and cultural      correctly               17                8               53%
experiences for 100%
of the 120 participants
for personal growth
and development.




ED-OIG/A04-C0019                             FINAL REPORT                    Page 20 of 30
Attachment A - Performance Goals With Inaccurate Supporting
Documentation

Table 5.2 – Upward Bound Young Scholar 2001 Award Year
                                                 Number of         Number of Student
                                                  Student         Files with Inaccurate
                              Verification          Files              Supporting              Accuracy
      Objective                  Steps            Sampled            Documentation            Percentage
1. To identify, recruit,     Student
and select 50 participants   eligibility
who meet the low-            correctly
income, first generation     reported                  7                      3                   57%
criteria and have need for
services.
2. To provide counseling     Academic
and guidance to 100% of      Advisement
the participants to ensure   correctly
that they graduate from      reported                  7                      4                   43%
high school and prepare
to enter a postsecondary
institution.
3. To provide academic       College Prep
achievement and              correctly
individualized               reported                  7                      7                   0%
prescriptions of services
and activities to 100% of
the 50 participants to
provide support for
accomplishing
educational and career
goals.
4. To inspire 96% of the     Ending GPA
participants to maintain     reported
at least a 2.5 grade point   correctly                 7                      1                   86%
average on a 4.0 scale.
5. To advance 96% of         Ending Grade
the participants selected    reported
one grade level each year    correctly                 7                      5                   29%
through classroom
instruction and tutoring.
6. To increase the raw       Not in Detail
scores of 75% of the 50      Report3, Not
participants by 10% on       Verified                N/A                    N/A                   N/A
the teacher-constructed
tests and by 9% growth
rate on the Test of Adult
Basic Education (TABE)
in English, Literature,
Mathematics, Reading
and Vocabulary.



3
  The College submitted its performance reports electronically. The performance reports included a
summary page, which provided total figures for performance goals met by all students. The reports also
included a detailed spreadsheet that showed each participating student’s individual performance data. This
is referred to in this table as the “Detail Report.”


ED-OIG/A04-C0019                             FINAL REPORT                                 Page 21 of 30
Attachment A - Performance Goals With Inaccurate Supporting
Documentation

                                                 Number of    Number of Student
                                                  Student    Files with Inaccurate
                              Verification          Files         Supporting          Accuracy
      Objective                  Steps            Sampled       Documentation        Percentage
7. To retain at least 80%    Exit date
of the 50 participants       reported
who enter the program        correctly               7                2                 71%
until the completion of
their secondary
education.
8. To graduate a             Degree level
minimum of 65% of the        reported
seniors who participate      correctly               7                0                100%
in the Summer Bridge
Program from college
within six years.
9. To motivate at least      Not in Detail
75% of the 50                Report, Not
participants who enroll in   Verified              N/A               N/A                N/A
postsecondary schools to
pursue and complete
degrees.
10. To administer the        PLAN reported
PLAN to non-bridge           correctly               7                3                 57%
students during the
Summer Residential
Component resulting in
60% of the freshmen
scoring 15 and above and
70% of the sophomores
scoring 17 and above.
11. To administer the        ACT reported
ACT to 100% of the           correctly               7                1                 86%
juniors each year
resulting in 75% of the
juniors scoring a 20 and
above.
12. To provide academic      Cultural Activity
enrichment, social, and      reported
cultural experiences for     correctly               7                7                 0%
100% of the fifty (50)
participants for personal
growth and development.




ED-OIG/A04-C0019                             FINAL REPORT                        Page 22 of 30
Attachment B – Written Response to the Draft Report




           STILLMAN ~===

          SCI)tcmbcr 12. 2003




          Mr. J. Wayne Bynum
          Rcgion~1     In spector Gcner..t!
          United Slates Depmtmcnt of &/uc:llion
          61 Forsyth Street. Room Isnl
          Atlanta. GA 30303

          Dear Mr. Bynum:

          I :Lpologizc fur the delay In rcspClnl,ling 10 Ih.:TR IO                      ~udil   lim.llngs .mtl Ihe Culle};c gn.:atly
          appreciates the extension gl len 10 cnml,l ctc lIS response.                            The ~ulC lled rt:!Xln ind udes a
          rCSf1on~ \0 each or the five audu Findings. In the instances I'here Ihe College does 111)1
          agree with the findings. t1ocurncllUltion was provided to suppon the College' s l)Ositlon.

          01 cr Ihe pasllwo rears, the College II:!; implemented scI'era! polky and r ro.;cdu la l
          chan£cs 10 improve lhe accounting ;Inti m,m'l(lnng of all rc"tncll'<l funds. Most of the
          findmgs identified in lhe aud it report n-prcsent                     pro"lem~        from ea rli er years {99. 00. 0 1)
          "h;ch the Cullege hus "orl-ed diligent ly to ~ut'r~~l. Th~' imp,,':l <If the IXlh~ y d1afl 6":~ ~ .• II
          be sl.""cn In Ihls aud ll. whl.""rcby there were \"I.""fy lew deficlCnclCS found In Ih.t- ::!llO2 :1'\ Jrd
          yea r.

          The College \\ III ~on l inuc 1<.1 work 10 i ml'tn\c Ih internal C(ln tlul p..,l,(·,l.""s :In:\              pn~'.:dun.:~
          [(l en,[lrc "b~o hllC compliancc wuh TRIO rcglll~lion ~.

          lr ~0I.l   h~\c   an y qUCSlIOllS. pleasc tkl nO! hcsiluH.· Itl COI1I:tel me al (205) 366·886S.



       ~/' AfJ                       .
       ~Coi~
          Busi ness Man ager

          Ce; Dr. ErneSI McNe;lley
                Dr. Chri slopher Jefreries
                M r. Vernon Freeman




                                         \".", ''''i., 1'•• \ 11;(J • ["""'JI•• ",•.\I,I"""        .1 ,411.'
                                                        "'k' I'I~, ,,,   lU,   . ;~., ~ !~IJ




ED-OIG/A04-C0019                                   FINAL REPORT                                                                      Page 23 of 30

Attachment B – Written Response to the Draft Report


                                TRIO OIG AUDIT RESPONSE
                                     September 5, 2003



Finding No. 1 - The College Drew Down More TRIO funds than were recorded as
expenditures
Using the time periods identified at the beginning of the audit for each TRIO program;
Student Support Services (9/1/97-10/31/02), Upward Bound and Initiatives (6/1/00-
10/31/02), Upward Bound Young Scholars and Initiatives (9/1/99-10/31/02), and Upward
Bound Math & Science (11/1/99-10/31/02), our analysis show a difference of
$174,348.98 between expenses recorded and the fund draw-downs. Below is a summary
of the findings. See schedule 1 for a detail comparison of Program expenses and
draws.
        TRIO Program                   Drawdowns             Expenses       Draws Not
                                                             Recorded       Expended

       Student Support                       $1,071,086                  $1,084,438         $ 13,352
       Services (SSS)
       Upward Bound (UB)                      1,253,053                   1,303,523            50,470
       Upward Bound
       Young Scholars (UBYS)                     749,253                    681,345            (67,908)
       Upward Bound
       Math Science (UBMS)                       684,397                    514,134          (170,263 )
                                                                                            $238,171.00
       The excess cash is reduced to $174,349 when the expenses which were incurred for SSS and UB, but not
       reimbursed are included.
In addition, it was discovered that during 99-00 indirect cost was not charged to any of
the TRIO programs, nor were the UBYS and UBMS programs billed for Room charges
for their Summer programs. These amounts totaled $57,273. A break-down of these
charges are as follows:
        TRIO Program                          Indirect Cost          Room Charges
        UBMS                                  $ 6,120                $ 17,352
        UBYS                                    7,960                   16,940
        SSS                                     8,901                ________
                                              $22,981                $ 34,292
It appears as though these costs were taken into consideration when the draw-downs were
done, but were never recorded on the ledger. Taking these legitimate expenses into
consideration, the draw-downs exceed expenses by $189,799, not $313,545.

Throughout the audit, it was communicated that the College implemented a new
integrated accounting system, which required a new account number structure. As part of
the transition to the new account number, several TRIO transactions were coded with the
old account numbers. The accountants worked to correct the account number problems,
but it apparently did not catch all of them. The excess cash in the UBYS and UBMS and
the overage in UB and SSS are attributed to the account number change.


ED-OIG/A04-C0019                          FINAL REPORT                                       Page 24 of 30
Attachment B – Written Response to the Draft Report


RECOMMENDATION RESPONSE
Over the past 18 months, several process changes have been made to improve the
College’s grant accounting procedures.
   • 	 Hired a new grant account who has over 15 years experience working with 

       Federal funds 

   • 	 Made it mandatory that all grant expenditures (other than payroll) adhere to the
       electronic requisition process.
   • 	 All requests are reviewed by the grant account to verify that the account numbers
       are correct for the period of the purchase and that the request is in adherence to
       College policies and Federal regulations.
   • 	 After requests are entered and printed from the system, the Comptroller reviews
       the account coding and verifies that appropriate paperwork is attached. Also,
       indicate the payment date for expense items.
   • 	 To ensure that personnel is properly charged to the grant, each Program Director
       is asked to complete a “Request for Payroll/Personnel Action” form at the
       beginning of the grant year for each employee. A copy of this form is attached.
       This form is also completed when a new employee is hired or there is a change in
       an employee status.
   • 	 At month end, the grant accountant reconciles the ledger to fund draws, if
       expenses exceed draw-downs, grant accountant submits request to the staff
       accountant to draw down funds. Funds are only drawn to cover expenses incurred
       and direct cost. If for any reason it’s determined that excess cash has been
       overdrawn, the cash is returned. Based on the new process overdraws would only
       occur if P.O.s or requisitions are later cancelled. A copy of spreadsheet is
       attached.

With these changes, the College is confident that all TRIO transactions will be properly
coded and recorded.

Finding No. 2 _ The College Lacked Proper Accounting Controls
Employee Salary Expenses Inaccurately Recorded
During FY 2001, the audit reports that 18 out of 57 payroll records sampled were
incorrectly coded to the appropriate TRIO grant and no significant deficiencies were
found in FY2002.

RECOMMENDATION RESPONSE
Throughout the audit, it was communicated that the College implemented a new
integrated accounting system, which required a new account number structure. As part of
the transition to the new account number, several TRIO transactions were coded with the
old account numbers. The accountants worked to correct the account number problems,
but it apparently did not catch all of them. The excess cash in the UBYS and UBMS and
the overage in UB and SSS are attributed to the account number change.




ED-OIG/A04-C0019                   FINAL REPORT 	                           Page 25 of 30
Attachment B – Written Response to the Draft Report


In response to the comment regarding “stipends and salary payments recorded at least
one month after payments were made”, the College outsources it Payroll to ADP, which
requires that the College manually record all Payroll transactions in its accounting
system. This is a tedious and time-consuming process, which accounts for the delay in
getting these expenses on the books. Detail payroll reports are provided from ADP, so
the College is aware of the monthly payroll expense for the TRIO programs.

The College implemented a new policy, which requires the TRIO Program Director to
complete a “Personnel Action Form” for all grant employees at the beginning of each
new grant period. The form request information regarding employee gross pay, name of
TRIO Program, account number, and if employee is paid from multiple sources, the
programs and the appropriate budget account number. (See Attachment 1) As a result
of implementing this new policy, the OIG audit found no deficiencies in their samples for
the 2002 award year.

TRIO Expenditures on Financial Statements Not Supported
It was determined that there was a difference between the amount of TRIO expenditures
reported on the College’s FY 2001 financial statements and what was recorded in the
accounting ledgers. We have contacted our auditors, Bank, Finley and White, to inquire
about the discrepancy. The auditors are looking at their work papers to determine the
explanation for difference.


Finding No. 3 – Inventory Not Maintained of Equipment Purchased with TRIO
funds
The College feels that it was in compliance with regulations at 34 C.F.R. 74.2 (2001),
which defines equipment as “tangible……….. useful life of more than one year and an
acquisition cost of $5,000 or more per unit”. This equipment was not capitalized, but was
tracked in our inventory report. To improve the tracking of these purchases, the
College’s inventory procedures have been updated to include the recording all of the
information required by federal regulations. The inventory will now include:
        (1) Description of Equipment                 (2) Identification number, serial #
        (3) TRIO program purchasing equipment (4) Acquisition date
        (5) Location and condition of equipment      (6) Acquisition cost
        (7) Disposition data

Also, Auxiliary Service is provided with the appropriate paperwork when capital
purchases are initiated and are notified when equipment is received, so that it can be
properly inventoried and tagged.




ED-OIG/A04-C0019                    FINAL REPORT                             Page 26 of 30
Attachment B – Written Response to the Draft Report

In reference to the statement “The Business Office Manager stated that several computers
had been stolen from the campus………..”. The Business Office Manager can say with
confidence that the computers “stolen” from the campus were not purchased with Federal
funds. The Business Office Manager told the OIG auditors that some laptop computers,
which were issued to students by the College were stolen. All laptop computers that
were issued to students were indeed purchased with College funds. The Business Office
Manager did not make a GENERAL statement regarding computers being stolen, the
comment was very specific as it related to laptop computers.



Finding No. 4 – Student Support Services Were Provided to Non-Participants
The College feels it was in compliance with SSS regulation [34 DFR Section
646.32(d)(1) (2001] as it relates to coordinating project services with other College
programs to provide support activities to disadvantage students. The College does offer
tutoring, mentoring, and academic advising to students, however, the College did not
have a structured English and Mathematics tutoring programs, which was readily
available to the general student population.

Also, in reference to the statement “The President and TRIO Director stated that non-
participants were allowed to use SSS services in order to encourage non-participants to
join the SSS program”, the President disavows making that statement.


RECOMMENDATION RESPONSE
In response to the audit recommendation, the following plan has been developed to
ensure that SSS English and mathematics tutors paid 100 percent with TRIO funds only
provide services to eligible participants:

The College has put in place a procedure whereby only eligible participants are provided
services by SSS English and mathematics tutors. Sign-in sheets are monitored to ensure
SSS participant use of the TRIO laboratories.



Finding No. 5 – Upward Bound and Upward Bound Young Scholars Performance
Reports We Not Always Accurate

We recommend that the Assistant Secretary of the Office of Postsecondary Education
require the College to:

5.1 	 Establish adequate procedures for preparing performance reports to ensure that the
      performance data reported for each student is accurate and supported by sufficient
      documentation.




ED-OIG/A04-C0019                   FINAL REPORT 	                           Page 27 of 30
Attachment B – Written Response to the Draft Report


RECOMMENDATION RESPONSE
The following plan has been developed to ensure that adequate procedures for
performance data reported for each student is accurate and supported by sufficient
documentation:

The College has put a staff in place to review student files, monitor program progress on
a monthly basis to serve as a safeguard to identify and offset possible errors, and to
ensure that program services are properly coded and documented.

As indicated by the performance report in Finding No. 5, TRIO performance report for
award year 2002 showed reported objectives to be accurate and documented.




ED-OIG/A04-C0019                   FINAL REPORT                             Page 28 of 30
Attachment B – Written Response to the Draft Report


       Atta c hlllent I

                                           STILLMAN COLLE GE
            REQUEST FOR PA YROLUPERsONNEL ACTION! Restricted (Grant) Personnel
            CII ECK TilE ArroRl ATE BOX BELOW FOR TilE TvrE OF ACTION REQUFSTEO (ONt.Ym .. ~:)
                    New Employee                         Ex!ension of Temporary Appointment
                    Salary Change                        Reappointment within same Calendar Yr.
                    Supplemental Pa y                    Scholarship/Stipend
                    Promotion! Transfer                  Existing Employee-Summer
                    Separalionffenninalion               New Employee-Summer
               A
              soc. soc. NOM   Ell                         USTNAME •                                M.l    I   OEN. LED.lo'UMOER




                                                                 CIIANGEOR SEPARATE                      .·ROM

                           .
                    IOB1Tlt.E                             DEPTIOI\!ISION NAME                 ,~,


                                                                                                           I
                                                                                                                 DI·WEEKLY OR
                                                                                                                 MotmiLYItATB



                                                                             <m~'.Ai
                 ro,~                    DI·WEEKLY                                                                       ~
                                                               MQtmILY I                  (lEN LEDfOIE~rUM,B~ ,
                                         RATI! <O' ..          RATI!Ot" I    ~~       -                                ~,

                                                                                                                         M~




            TERMINATION DATE:                                               COMMENTS:

            REASO N (optional) :


                    c.                        APPOINT, REAPPOINT, OR CIIANGE TO:




                                    ,.



                                                                       PPROVA

            Principal In vestigator                     Date                    Vice President

            Please complele A & B !Change or Separation or A& C for New Appointments or Re -appoinl.
            Please Send Copies 10 Eleisea Baker & Barbara Palmer, Business Office.




ED-OIG/A04-C0019                                        FINAL REPORT                                                   Page 29 of 30

Attachment B – Written Response to the Draft Report




                         '.!_
                               .
                                \'  '.' '1-',_ , ~ 51, li;:o:
                                     I," ~
                                  i 'I           !  I '~' nil
                       --"--'-'-"".2._'0"!....',' --'-'-.1 r,'
                                                                 1l'.1 T<.: !i¥ii ,
                                                                 l!' H~ nUl
                                                                 " 11:.   tI ~!..=-'7
                                                                               .1
                                                                                       ,   .
                                                                      ';; i ' !' I
                        !,      ,
                                i         i' i i i _!
                                       !1 ::::1
                                                       jI

                                                        !
                                                            I

                                                    ! : . If r
                                                                 ir
                                                                       !!
                                                                       6~
                                                                               I' ,\
                                                                            I t :




ED-OIG/A04-C0019                    FINAL REPORT                                           Page 30 of 30

